                                    Social Security Administration
                                   Office of the Inspector General


                                     Semiannual Report
                                       to Congress

                                  Forging New Partnerships
                                      October 1, 2006 thru March 31, 2007




Report Fraud, Waste, and Abuse

       1-800-269-0271




     www.socialsecurity.gov/oig

      SSA OIG Pub. No. 85-007
        Published April 2007
                                                                    How to Report Fraud
                                                          The SSA OIG Fraud Hotline offers a means for you to
                                                         provide information on suspected f raud, waste, and abuse.
 Social Security Administration                           If you know of current or potentially illegal or improper
                                                             activities involving SSA programs or personnel, we
 Office Of The Inspector General                           encourage you to contact the SSA OIG Fraud Hotline.

                 Mission Statement
                                                                    Call	1-800-269-0271
By conducting independent and objective audits,
evaluations and investigations, we inspire public                 Write	 Social Security Administration
confidence in the integrity and security of SSA’s
programs and operations and protect them             	                   Office of the Inspector General
against fraud, waste and abuse. We provide timely,   	                   Attention: SSA Fraud Hotline
useful and reliable information and advice to        	                   P. O. Box 17768
Administration officials, Congress and the public.   	                   Baltimore, MD 21235

                                                                     Fax	410-597-0118
                 Vision and Values
We strive for continual improvement in SSA’s
programs, operations and management by                         Internet   www.socialsecurity.gov/oig
proactively seeking new ways to prevent and deter
fraud, waste and abuse. We commit to integrity           To obtain additional copies of this report please visit our
and excellence by supporting an environment                        website at www.socialsecurity.gov/oig
that provides a valuable public service while
encouraging employee development and retention
and fostering diversity and innovation.
                                                                           SSA Pub. No. 85-007
October 1, 2006 Thru March 31, 2007	                          SSA Office of the Inspector General




A Message from the Inspector
General
On January 3, 2007, the 110th Congress convened
for the first time. One month later, it confirmed
Michael J. Astrue as the new Commissioner of Social
Security. Since the Office of the Inspector General
is responsible to the Congress and reliant on the
cooperation of Social Security’s Commissioner, these
changes give rise to important new partnerships.
However, they in no way alter our focus and dedication
to our core mission of preventing and detecting fraud,
waste, and abuse in Social Security programs and
operations.
An Inspector General can only be as effective as his or
her relationships with Congress and with the head of
the establishment allow. Throughout my first 2 years as Inspector General for the Social
Security Administration, I have been fortunate in both regards, enjoying a productive
relationship with former Commissioner Jo Anne  Barnhart and benefiting from unwavering
Congressional support.
In the few short months since the new Congress convened and the new Commissioner
took office, we have quickly forged new partnerships that promise to be equally productive
and rewarding, not just for the men and women of the Office of the Inspector General, but
for the Social Security Administration and the American people. We are already working
closely with new Committee chairmen and staff to make improvements in the Social
Security programs upon which millions of Americans rely, and Commissioner Astrue has
provided nothing but support for and cooperation with our efforts.
President John F. Kennedy said that “a rising tide lifts all the boats. And a partnership, by
definition, serves both partners. . . .” I hope that our efforts serve our partners as well as
theirs serve the Office of the Inspector General, and I look forward to the accomplishments
that this rising tide might carry.
Sincerely,

S
Patrick P. O’Carroll, Jr.
Inspector General




                                                                                                    
    Semiannual Report to Congress	   October 1, 2006 Thru March 31, 2007





October 1, 2006 Thru March 31, 2007	                            SSA Office of the Inspector General




         Semiannual Report to Congress
           Forging New Partnerships



      Contents
         A Message from
           the Inspector General............................... 1
         Executive Summary.......................................... 5
         Introduction to Our Organization... 7
         Impact ................................................................... 8
         Value...................................................................... 19
         People .................................................................. 27
         Reporting Requirements and
           Appendices....................................................... 31
         Glossary of Acronyms ............................... 45




                                                                                                      
             Semiannual Report to Congress	   October 1, 2006 Thru March 31, 2007




  •  Executive Summary
October 1, 2006 Thru March 31, 2007	                          SSA Office of the Inspector General




Executive                                         initiatives, contributing to the integrity
                                                  of SSA’s disability programs. During this
Summary                                           reporting period, the efforts of our CDI
                                                  units resulted in almost $92 million in SSA
With this report, the Social Security             program savings.
Administration (SSA) Office of the
Inspector General (OIG) proudly presents          Our auditors also had a significant impact
its accomplishments from October 1, 2006          during this reporting period, issuing
– March 31, 2007. During this reporting           44 reports and making recommendations
period, we have begun to forge productive         on a wide variety of challenges facing the
relationships with new partners in Congress       Agency. Our audit work over the past
and SSA. Significant changes within these         6 months notably includes efforts to improve
organizations have provided OIG the               the integrity of the Social Security number
opportunity to gain new perspectives on           (SSN) and evaluate initiatives aimed at
the continuing challenge of ensuring the          protecting it from misuse. For example,
integrity and reliability of SSA’s programs       we released two Congressional Response
and operations. We look forward to working        Reports in which we assessed the accuracy
together with these new partners in the           of SSA’s Numident records and evaluated
upcoming months and years for the benefit         employer verification programs. Our
of the American people.                           auditors also evaluated the financial impact
                                                  of improper payments, addressing issues
The sections of this report correspond to         ranging from timely age-18 redeterminations
the three major goals—impact, value, and          for Supplemental Security Income (SSI)
people—set forth in the OIG Strategic Plan:       recipients to the accurate identification of
Fiscal Years 2006 – 2010. Highlights of our       deceased representative payees.
noteworthy achievements appear in each of
these categories as follows:                      Value
Impact                                            Our organization strives to provide quality
                                                  products and services of value in a timely
We work to have a positive impact on SSA          manner to Congress, SSA and other key
programs and operations by enhancing              decision-makers while sustaining a positive
their integrity, efficiency, and effectiveness.   return for each tax dollar invested in OIG
Toward this goal, we received more than           activities. During this reporting period, our
57,000 allegations from SSA employees,            auditors identified more than $443 million
Congress, the public, law enforcement             in questioned costs and over $2.8 billion in
agencies, and other sources during the first      Federal funds that could be put to better
half of Fiscal Year (FY) 2007. From those         use. Highlighted audits include Texas
allegations, we closed more than 5,300            school district employees’ exemption from
criminal investigations, resulting in over        the Government Pension Offset (GPO); the
1,700 arrests, over 800 indictments, and          accuracy of Title II disability payments to
more than 1,900 convictions, civil monetary       individuals receiving workers’ compensation
penalty (CMP) assessments, and illegal            (WC) benefits; and SSA’s collection of
alien apprehensions. Our Cooperative              court-ordered restitution.
Disability Investigations (CDI) program
continues to be one of our most successful



                                                                                     Executive Summary  •  
             Semiannual Report to Congress	                             October 1, 2006 Thru March 31, 2007



             In the first half of FY 2007, we are             As is reflected in our significant
             reporting over $179 million in investigative     accomplishments during this reporting
             accomplishments, with over $38 million           period, we never waver in our dedication
             in SSA recoveries, restitution, fines,           to our core mission of inspiring public
             settlements, and judgments, and over             confidence by detecting and preventing
             $140 million in projected savings from           fraud, waste, and abuse in SSA’s programs
             investigations resulting in the suspension       and operations. We will continue to work
             or termination of benefits. In addition, we      with our new partners in Congress and
             participated in multi-agency investigations      SSA to ensure the integrity and reliability
             that resulted in over $46  million in savings,   of the Social Security programs upon
             restitution, and recoveries for other            which so many Americans depend for their
             agencies. Highlighted investigations in          economic security.
             this section revealed evidence of disability
             program fraud, representative payee fraud,
             and SSN misuse.
             During this reporting period, our attorneys
             initiated 173 CMP cases, which involve
             false statements or representations made
             in connection with obtaining or retaining
             benefits or payments under Titles II
             and  XVI of the Social Security Act
             (the Act). Included in our investigative
             accomplishments above is nearly
             $1.3 million in penalties and assessments
             that our attorneys imposed through our
             CMP program.
             People
             OIG strives to promote a positive
             and rewarding work environment and
             maintain a skilled, diverse, and motivated
             workforce. During this reporting period,
             we continued to encourage our personnel
             to take advantage of training opportunities.
             We also worked to pursue and retain the
             best employees possible. Toward that end,
             we implemented an automated system to
             process and maintain information related to
             vacancy announcements and hiring of new
             employees. We also continue to enhance our
             National Investigative Case Management
             System, providing increased functionality
             to our investigators and attorneys.




  •  Executive Summary
 October 1, 2006 Thru March 31, 2007	                         SSA Office of the Inspector General




Introduction                                            Office of Investigations (OI)
to Our                                                  OI conducts and coordinates investigative activity
                                                        related to fraud, waste, abuse, and mismanagement
Organization                                            in SSA programs and operations. This includes
                                                        wrongdoing by applicants, beneficiaries, contractors,
SSA OIG is comprised of the Immediate Office of         and third parties, as well as by SSA employees
the Inspector General and four major components:        while performing their official duties. This office
Audit, Investigations, Chief Counsel to the             serves as OIG’s liaison to the Department of Justice
Inspector General, and Resource Management.             (DOJ) on all matters relating to the investigation
                                                        of SSA programs and personnel. OI also conducts
Immediate Office of the Inspector                       joint investigations with other Federal, State, and
General (IO)                                            local law enforcement agencies.
IO provides the Inspector General with staff            Office of the Chief Counsel to the
assistance on the full range of his responsibilities.
IO staff provide liaison services with all agencies
                                                        Inspector General (OCCIG)
sharing an interest or a role with OIG and ensure       OCCIG provides independent legal counsel to
coordination with Congressional committees,             the Inspector General on a wide range of issues,
SSA, the Social Security Advisory Board and the         including statutes, regulations, legislation, and
President’s Council on Integrity and Efficiency         policy directives. OCCIG advises the Inspector
(PCIE). The IO’s Office of Quality Assurance            General on investigative procedures and techniques,
and Professional Responsibility (OQAPR) is              as well as on legal implications and conclusions to
responsible for two critical functions. It conducts     be drawn from audit and investigative material.
exhaustive reviews of each of the OIG’s component       OCCIG also administers the CMP program.
offices to ensure compliance with Federal laws          This office manages OIG’s external and public
and regulations, Agency policies, and relevant          affairs program, preparing OIG publications and
professional standards. OQAPR also conducts             handling Congressional, media, and public requests
thorough and timely investigations should               for information.
allegations of misconduct be lodged against an
OIG employee.
                                                        Office of Resource Management
                                                        (ORM)
Office of Audit (OA)                                    ORM provides administrative and management
OA conducts and supervises financial and                support to the Inspector General and OIG
performance audits of SSA programs and                  components. ORM formulates and executes the
operations, and makes recommendations to ensure         OIG budget and confers with the Office of the
that program objectives are achieved effectively and    Commissioner, the Office of Management and
efficiently. Financial audits determine whether         Budget (OMB) and the Congress on budget
SSA’s financial statements fairly present SSA’s         matters. ORM is responsible for strategic planning,
financial position, results of operations, and cash     performance reporting, and facility and property
flow. Performance audits review the economy,            management. ORM develops and maintains
efficiency, and effectiveness of SSA’s programs         OIG’s administrative and management policy
and operations. OA also conducts short-term             and procedures, and performs all human resource
management and program evaluations, and other           support activities for OIG. ORM also plans,
projects on issues of concern to SSA, the Congress,     designs, develops, tests, implements, and maintains
and the general public.                                 hardware, software, and telecommunications
                                                        networks to support our mission.


                                                                    Introduction to Our Organization  •         
                Semiannual Report to Congress	                             October 1, 2006 Thru March 31, 2007




                Impact                                           We analyzed a file of about 1.2 million
                                                                 individuals receiving SSI in June 2005,
                We are committed to enhancing SSA’s              and identified 534,155 recipients under
                effectiveness and efficiency through our         age 18 who had been receiving SSI for at
                investigations, audits, and legal activities.    least 4 years, and 48,097 recipients between
                Through our best efforts, we strive to have      the ages of 19 – 20 who were receiving
                maximum impact on SSA’s programs                 SSI prior to their 18th birthday. For each
                and operations to ensure their continued         group of recipients, we randomly selected
                integrity and reliability.                       275 sample cases, for a total of 550 cases.
                During this reporting period, we completed       We found that although SSA generally
                numerous audits, investigations, and legal       made determination s re gardi ng
                initiatives covering major SSA program and       appropriate medical treatment, the
                management areas, which had a significant        Agency did not complete all CDRs or
                impact on the detection and prevention of        age-18 redeterminations in a timely
                fraud, waste, and abuse. The summaries           manner. Specifically, we found that 39
                presented below are indicative of our work       percent of CDRs and 12 percent of
                over the past 6 months.                          age-18 redeterminations were not completed
                                                                 timely. As a result, we estimated that SSA
                                                                 made about $194.7 million in SSI payments
                Audit Impact Initiatives                         to approximately 205,900 recipients under
                OA contributes to this strategic goal by         age 18 who were no longer eligible, and the
                conducting and supervising comprehensive         Agency will continue to pay an additional
                financial and performance audits of SSA’s        $96.9 million annually until these reviews
                programs and operations, and by making           are completed. We estimated that SSA
                recommendations to maximize the effective        paid about $4.5 million in SSI payments
                operations of the Social Security programs.      to approximately 5,600 recipients who
                These audits, along with short-term              did not have an age-18 redetermination
                management and program evaluations,              completed by age 20, and will continue to
                focus on those SSA programs and activities       pay an additional $8.7 million annually
                most vulnerable to fraud and abuse.              until these reviews are completed.
                                                                 SSA, while noting that insufficient
                SSA Operations: Childhood                        resources prevented it from doing all CDRs
                Continuing Disability Reviews and Age            timely, agreed with our recommendations
                18 Redeterminations                              to: (1) conduct childhood CDRs at least
                                                                 every 3 years for children under age-18
                Title XVI of the Act requires SSA to:
                                                                 whose impairments are likely to improve;
                (1) perform continuing disability reviews
                                                                 (2) conduct age-18 redeterminations
                (CDR) at least every 3 years on SSI
                                                                 by the time recipients attain age 20; and
                recipients under age 18; (2) determine
                                                                 (3) continue to seek special funding for
                whether child recipients receive appropriate
                                                                 CDR workloads. SSA disagreed, however,
                medical treatment; and (3) redetermine SSI
                                                                 with our analysis that certain CDRs were
                eligibility using adult criteria within 1 year
                                                                 not completed timely, stating that those
                of the child’s 18th birthday. In this review,
                                                                 reviews were not performed due to budget
                we assessed whether SSA complied timely
                                                                 constraints.
                with these statutory requirements.



   •  Impact
 October 1, 2006 Thru March 31, 2007	                          SSA Office of the Inspector General



Congressional Response Report: Employer              simply ignored the policy. If DHS determines
Feedback on SSA’s Verification Programs              that these other types of verifications should be
                                                     allowed, legislative changes may be needed.
On April 7, 2006, we received a request
from Chairman Jim McCrery of the House               SSN Integrity: Effectiveness of the Young
Committee on Ways and Means, Subcommittee            Children’s Earnings Records Reinstatement
on Social Security, to assist the Subcommittee       Process
in its understanding of employee verification
programs. In particular, the Chairman asked          In 1992, SSA began checking the date of birth
for information on the experiences of employers      on the record of SSNs under which wages are
who had used: (1) SSA’s Social Security              reported to determine if the SSNs belong to
Number Verification Service (SSNVS), an              children under age 7. Wages that appear to
online employee verification program; and 2)         belong to children are placed in the Earnings
the Department of Homeland Security’s (DHS)          Suspense File (ESF), which holds earnings
Basic Pilot, a program that uses SSA data to         items that cannot be matched to SSA records.
verify newly-hired employees’ authorization to       These wages are assigned a Young Children’s
work in the United States.                           Earnings Record (YCER) indicator, and the
                                                     Agency notifies employers or employees to
We interviewed program users at                      resolve the discrepancy and, if appropriate,
100 employers—50 each from SSNVS and                 reinstate earnings to the appropriate individual’s
the Basic Pilot—to assess their satisfaction         record.
with the programs. The 100 employers were
in industries such as temporary employment,          We initiated this audit to assess the effectiveness
food, retail, and government. We found that          of this YCER reinstatement process in resolving
92 percent of the SSNVS users and 100 percent        suspended earnings, reducing the size of the
of the Basic Pilot users interviewed rated the       ESF, and detecting potential fraud. Our review
programs as “Excellent,”“Very Good,” or “Good.”      of the Tax Year 2002 YCER file found that while
In addition, at least 98 percent of the users from   the process was effective in suspending YCER-
both programs indicated their employers were         identified earnings, SSA was often not able to
very likely to continue using the programs.          reinstate earnings to the correct individual’s
                                                     record. From a sample of 250 YCER earnings
About 14 percent of the SSNVS users and              items, we found that 72 percent were not
10 percent of the Basic Pilot users we interviewed   reinstated. The majority of these appeared to
reported experiencing minor problems using           involve potential SSN misuse. Of the items that
the two programs. In most of these cases, the        were reinstated, we determined that about one
users reported that SSA and/or DHS staff             in four were questionable, because the earnings
were able to resolve their problems timely. We       may still have involved SSN misuse. Since SSA’s
also found that approximately 42 percent of          employee verification services do not require
the Basic Pilot users we interviewed were not        employers to submit employees’ dates of birth,
using the program as intended. The program           employers who use these services may not be
is intended to verify the work authorization of      aware that verified SSNs belong to children
newly-hired employees within 3 days after they       under age 7.
are hired; however, some employers conducted
verifications for longstanding employees             SSA agreed with our recommendations
or individuals who were not yet hired. We            to: (1) review and correct the questionable
could not determine whether these employers          reinstated earnings; (2) ensure that staff
misunderstood the Basic Pilot requirements, or       receives additional guidance and training in



                                                                                                     Impact  •  
                 Semiannual Report to Congress	                          October 1, 2006 Thru March 31, 2007



             the reinstatement process; and (3) modify         our sample included SSNs that were
             the Agency’s employee verification services       assigned decades ago, we recognize that
             to detect SSNs for children under age 7.          some numberholders are no longer working
                                                               and will not attempt to correct their SSA
             Congressional Response Report:                    records. However, if use of the Basic Pilot
             Accuracy of SSA’s Numident File                   becomes mandatory, SSA’s workload would
                                                               significantly increase if even a portion of
             Beginning in November 1971, only original         the estimated 17.8 million individuals
             SSN requests from individuals over age 55         whose records contained discrepancies were
             required proof of identity. In October 1972,      required to visit an SSA office to correct their
             legislation amended Section 205 (c) (2) of        information.
             the Act to require evidence to establish age,
             true identity, and citizenship or alien status    SSN Integrity: The Las Vegas Social
             from all SSN applicants. SSA’s Numident file      Security Card Center
             contains relevant information about Social
             Security numberholders, including name,           In this review, we evaluated SSA’s compliance
             date of birth, place of birth, and citizenship    with policies and procedures when processing
             status. These data are used in the Basic Pilot,   SSN applications at the Las Vegas Social
             a DHS program that uses SSA data to verify        Security Card Center (LVSSCC). Since its
             employment eligibility. The House Ways and        opening in April 2005, the LVSSCC has
             Means Committee’s Subcommittee on Social          processed requests for original and replacement
             Security asked us to assess the accuracy of       Social Security cards for residents of the Las
             SSA Numident fields that are relied on by         Vegas Valley and greater Southern Nevada
             the Basic Pilot for each of the following U.S.    area.
             populations: native-born citizens, foreign-
             born citizens, and non-citizens.                  We reviewed a random sample of 200 original
                                                               and replacement SSNs issued by the LVSSCC,
             We reviewed 810 randomly-selected Numident        and found that the center generally complied
             records for each of the three populations, for    with SSA policies and procedures. However,
             a total of 2,430 records. Although we found       we did identify several areas for improvement.
             SSA’s information to be generally accurate, we    We found that the LVSSCC staff did not
             identified some discrepancies that could result   complete the “relationship to applicant” field
             in incorrect feedback to employers attempting     on the application form for 40 individuals
             to determine the employment eligibility of        (20 percent). We also determined that from
             their workers. Of the 2,430 Numident records      April 2005 through February 2006, 2,816
             we reviewed, 136 contained discrepancies in       individuals residing within the Las Vegas
             the name, date of birth, or citizenship status    and North Las Vegas field offices’ servicing
             of the numberholder, or we determined that        areas applied for, and received, original or
             the numberholder may be deceased. As a            replacement cards from those field offices,
             result, we estimated that discrepancies in        rather than LVSSCC as required by SSA
             approximately 17.8 million (4.1 percent)          policy. Finally, we found that LVSSCC did
             of the 435 million Numident records could         not provide adequate safeguards over Social
             result in incorrect feedback when submitted       Security cards mailed to its office. Specifically,
             through the Basic Pilot.                          LVSSCC could not verify whether the 981
                                                               Social Security cards mailed to its office
             Our review showed that the overall accuracy       were received, picked up by the applicant or
             of SSA’s records is noteworthy. Because           destroyed.


10   •  Impact
    October 1, 2006 Thru March 31, 2007	                           SSA Office of the Inspector General



SSA agreed with our recommendations, including          benchmarks and SSA’s average processing time
that SSA: (1) ensure that LVSSCC staff comply           goal for hearing claims. Greater correlation
with SSA policy when processing applications            between timeliness benchmarks used in the No
for Social Security cards; (2) monitor controls         Status Change report and SSA’s stated goals in its
to ensure that SSN applications for individuals         accountability reports could improve the overall
residing in the LVSSCC servicing area are               timeliness of the hearing process. SSA agreed
processed by the card center; and (3) monitor           with our recommendations, including that SSA:
procedures to ensure that Social Security cards         (1) ensure that No Status Change benchmarks
mailed to LVSSCC are properly safeguarded.              include all relevant steps in the hearing process;
                                                        (2) ensure that all hearing offices use the same
SSA Operations: Management’s Use                        coding procedures; and (3) establish provisions
of Workload Status Reports at Hearing                   to handle situations affecting the scheduling of
Offices                                                 hearings.
When SSA denies a disability claim, the claimant
may appeal the decision and present his or her          Investigative Impact Initiatives
case at a hearing with an administrative law judge
                                                        OI examines allegations of fraud, waste,
(ALJ). In this review, we assessed the effectiveness
                                                        mismanagement, and abuse in SSA programs
of timeliness benchmarks used in the SSA
                                                        and operations. This includes benefit fraud, SSN
Office of Disability Adjudication and Review’s
                                                        misuse, violations by SSA employees, and fraud
(ODAR) Case Processing and Management
                                                        related to grants and contracts. Our investigations
System (CPMS) to identify bottlenecks in the
                                                        often result in criminal and civil prosecutions
hearing process. SSA’s average processing time
                                                        or CMP assessments against offenders. These
for hearings in FY 2006 was 483 days.
                                                        investigative efforts impact SSA program
CPMS is designed to control and process                 integrity by deterring those contemplating fraud
hearing claims and produce management reports           against SSA in the future. Our work in the areas
to monitor workloads. To identify bottlenecks           of program fraud, enumeration fraud, SSN
in the hearing process, we reviewed the No              misuse, and employee misconduct ensures the
Status Change report. Its purpose is to ensure          reliability of SSA programs and their future
that pending claims are processed timely. As of         operations.
June 2006, ODAR had approximately 725,000
pending claims in CPMS. Our review found that                        Investigative Results
419,000 (58 percent) of these were not being                            (10/01/06– 3/31/07)
tracked on the No Status Change report 1. Of the         Allegations Received                      57,309
306,000 pending claims that were being tracked,
about 118,500 (39 percent) exceeded timeliness           Cases Opened                                5,449
benchmarks. Of those claims exceeding the
benchmarks, we found that 74,231 (63 percent)            Cases Closed                                5,340
were “untimely,” meaning that they exceeded the          Arrests                                     1,709
benchmarks by more than 100 percent.
                                                         Indictments/Informations                        850
While the No Status Change report is designed
to improve hearing office timeliness, we could           Total Judicial Actions                      2,120
not find a link between the No Status Change              Criminal Convictions                       1,087

  The majority of these claims were in Unassigned
Workup status code, indicating they had been received     Civil/CMPs                                     149
in the hearing office but were awaiting processing.
                                                          Illegal Alien Apprehensions                    884

                                                                                                         Impact  •  11
                 Semiannual Report to Congress	                                        October 1, 2006 Thru March 31, 2007




                                                       Cases Opened by Program Category
                                                            (10/01/2006 - 3/31/2007)


                                          Employee Related             Other              SSN Misuse
                                               2.07%                   1.34%                13.53%




                   Title XVI-Disability                                                                Title II-Disability
                         40.94%                                                                             30.30%




                                                      Title XVI-Aged           Title II-Retirement
                                                           3.17%                      8.64%




                                                        Cases Closed by Program Category
                                                            (10/01/2006 - 3/31/2007)


                                                Employee Related       Other           SSN Misuse
                                                     1.99%             1.24%             12.28%



                   Title XVI-Disability                                                                 Title II-Disability
                         40.86%                                                                              30.21%




                                                   Title XVI-Aged              Title II-Retirement
                                                        2.68%                        10.75%




12   •  Impact
October 1, 2006 Thru March 31, 2007	                       SSA Office of the Inspector General




                         Allegations Received by Source
                                    (10/01/06 – 3/31/07)


                    Law Enforcement                          21,234

                    Private Citizens                          8,766

                    Anonymous                                 9,075

                    SSA Employees                            13,318

                    Other                                     3,459

                    Beneficiaries                              964

                    Public Agencies                            493


                    TOTAL                                   57,309




                        Allegations Received by Category
                                    (10/01/06 – 3/31/07)


                    SSI Disability                           20,464

                    Disability Insurance                     21,466

                    SSN                                       5,587

                    Old-Age, Survivors Insurance              3,159

                    Other                                     5,525

                    Employee                                    607

                    SSI Aged                                    501

                    TOTAL                                    57,309




                                                                                                 Impact  •  13
                 Semiannual Report to Congress	                            October 1, 2006 Thru March 31, 2007



                 Employee Fraud: SSA Employee                      systems, caused a fraud loss of $267,884.
                 Appoints Boyfriend as Representative              Our investigation did not indicate, however,
                 Payee for SSI Recipients                          that he profited financially from his actions,
                                                                   or that the SSI recipients were aware of
                 Agents in our Detroit, Michigan office            the fraudulent nature of the payments. The
                 conducted an investigation that revealed          employee sometimes even provided funds to
                 that an SSA employee used SSA’s computer          SSI recipients from money orders that he
                 systems to appoint her boyfriend as the           purchased with his own funds. The employee
                 representative payee for various SSI recipients   resigned from his position in November 2004,
                 without their knowledge. The employee then        after becoming aware of our investigation. He
                 directed future SSI payments to her residence     later pled guilty to misapplication of fiduciary
                 and to a rental property owned by her             property and was sentenced in January 2007
                 boyfriend. Our investigation also indicated       to 11 years’ incarceration.
                 that the employee and her boyfriend cashed
                 the checks and then processed a claim of          Bankruptcy Fraud Project: Man Uses
                 non-receipt of those checks, generating           Fraudulently Issued SSNs to Conceal
                 duplicate checks that the boyfriend cashed as     Assets While Declaring Bankruptcy
                 well. To avoid detection, the employee waived
                 any overpayments placed on the recipients’        In cooperation with the Internal Revenue
                 records.                                          Service (IRS) Federal Bureau of Investigations
                                                                   (FBI), and New York State Police, agents from
                 Our agents executed a search warrant              our Batavia, New York office investigated a
                 and seized evidence of the fraud as well as       34-year-old Syracuse, New York man who
                 several firearms belonging to the boyfriend,      filed false applications for SSNs for both his
                 a convicted felon. In January 2007, after         wife and himself. The suspect changed their
                 pleading guilty to wire fraud, the employee       parents’ names and dates of birth and stated
                 was sentenced to 12 months’ incarceration         that neither he nor his wife had previously
                 and 2 years’ supervised release, and was          been assigned SSNs. The suspect used the
                 ordered to pay restitution of $21,418 to          falsely issued SSNs to conceal assets and
                 SSA. Additionally, SSA terminated the             bank accounts when he filed for personal
                 employee in March 2006. The boyfriend pled        bankruptcy.
                 guilty to possessing a firearm as a convicted
                 felon and was sentenced in November 2006          The man was charged with making a false
                 to 67 months’ incarceration and 2 years’          application for an SSN and providing false
                 supervised release.                               statements in a bankruptcy proceeding. He
                                                                   was sentenced in February 2007 to 5 months’
                 Employee Fraud: SSA Employee Makes                incarceration, to be followed by 2 years’
                 Improper Payments to SSI Recipients               supervised release. In addition, he forfeited to
                 Totaling $267,884                                 the Government $110,000 that was found in
                                                                   his residence during the execution of a search
                 Agents from our Houston office investigated       warrant.
                 an SSA employee who used his position to
                 cause improper payments to be made to SSI
                 recipients who were ineligible for payments       Fugitive Felon Program
                 or were eligible for a lesser amount than that    The OIG’s Fugitive Felon Program identifies
                 which he disbursed to them. The employee,         fugitive felons and parole and probation
                 a supervisor who asked subordinates to            violators via automated data matches
                 make fraudulent inputs to SSA’s computer          between SSA’s beneficiary rolls and Federal

14   •  Impact
 October 1, 2006 Thru March 31, 2007	                         SSA Office of the Inspector General


and State warrant databases. The impact of         South Carolina. Further research showed that
this program reaches beyond Social Security        the man made a monthly withdrawal of his
to local communities nationwide. Our efforts       SSI payment from the Safe Federal Credit
contributed to the arrest of over 6,500            Union in Sumter. We arrested the man when
fugitives during this reporting period—and a       he visited the credit union to withdraw his
total of over 51,500 arrests since the program’s   SSI payment, and he remains detained in
inception in 1996. The following are highlights    the Sumter-Lee Regional Detention Center,
of fugitive felon investigations during the past   awaiting extradition to Rhode Island. SSA
6 months.                                          has determined that the man was overpaid
                                                   $35,270 as a result of his fugitive status.
Fugitive Felon Program: Father Arrested
for Committing Sexual Assault on Child             Fugitive Felon Program: 16-Year-Old SSI
                                                   Recipient Arrested for Attempted Murder
In January 2007, agents from our Denver
office, working with the Denver Fugitive           Agents from our Baltimore, Maryland office
Location and Apprehension Group, arrested          participated in the recent “Baltimore Sweep
a 34-year-old Title II disability beneficiary      Operation,” coordinated by the United States
and SSI recipient. He was arrested based on        Attorney’s Office. The operation was initiated as
a felony warrant issued by the Denver Police       a result of recent shootings of law enforcement
Department after they investigated a complaint     officers and an increase in the number of
that the man participated in a sexual assault on   homicides in Baltimore. In February 2007,
his own 5-year-old child. He was taken into        we arrested a 16-year-old SSI recipient, in
custody as he left the City of Denver Family       coordination with law enforcement personnel
Court, where he was answering a petition filed     from the U.S. Department of Housing and
by family members to terminate his parental        Urban Development, USMS, and local police.
rights to the child he is accused of assaulting.   The boy was subsequently charged as an adult
The man was transported to the Denver              with attempted 2nd-degree murder, 1st-degree
County Jail, where he remains in custody on        assault, and 2nd-degree assault with a deadly
a $75,000 cash bond. SSA has taken action to       weapon.
suspend the man’s benefits.

Fugitive Felon Program: SSI Recipient
                                                   Cooperative Disability
Arrested for Sexual Assault                        Investigations
Agents from our Columbia, South Carolina           Our Cooperative Disability Investigations
office, working with the United States             (CDI) program continues to be one of our
Marshals Service (USMS) Fugitive Task              most successful initiatives, contributing to the
Force, arrested a 64-year-old SSI recipient        integrity of SSA’s disability programs. CDI is a
in February 2007, based on two outstanding         joint effort of the OIG, SSA, State Disability
felony arrest warrants for 1st-degree sexual       Determination Services, and State and local
assault and failure to appear. These warrants      law enforcement personnel. Our 19 CDI units
were issued against the suspect in November        in 17 States work to obtain sufficient evidence
1996 by the Providence, Rhode Island Police        to identify and resolve issues of fraud and abuse
Department.                                        related to initial and continuing disability
                                                   claims. The following table highlights the
We initiated this case when the USMS               successes of the CDI program, which yielded
contacted us for investigative assistance.         almost $92 million in SSA program savings
We identified the man as an SSI disability         during this reporting period.
recipient, with a residential address in Sumter,

                                                                                                    Impact  •  15
                 Semiannual Report to Congress	                                  October 1, 2006 Thru March 31, 2007




                                     Cooperative Disability Investigations Program Results
                                                    (October 1, 2006 – March 31, 2007)


                                           Allegations      Confirmed                                 Non-SSA
                           State            Received       Fraud Cases         SSA Savings      1     Savings2

                  Arizona                           59                 40          $2,645,040            $842,920
                  California3                      401                262         $16,481,952          $12,476,406
                  Colorado                          64                 51          $3,391,500           $1,436,688
                  Florida                           52                 47          $3,052,150           $2,493,663
                  Georgia                           86                 75          $5,120,832           $1,427,562
                  Illinois                          40                 48          $2,990,785           $1,182,465
                  Louisiana                         36                 28          $1,678,080            $752,241
                  Massachusetts                     56                 31          $1,937,304            $869,240
                  Missouri                          95                 55          $3,574,240           $1,257,320
                  New Jersey                        99                 94          $6,282,240           $5,661,985
                  New York                          76                 71          $4,631,948           $4,431,960
                  Ohio                             257                126          $7,963,680           $4,129,300
                  Oregon                           162                144          $9,451,760           $7,250,195
                  Tennessee                         85                 49          $3,217,011           $1,570,702
                  Texas4                           170                108          $6,782,221           $3,576,173
                  Virginia                          65                 41          $2,746,856           $2,374,899
                  Washington                       163                147          $9,469,114           $7,420,805
                  Total                           1966              1417          $91,416,713          $59,154,524

                  1
                   SSA program savings are projected at a flat rate of $66,500 for initial claims that are denied as a
                  result of CDI investigations. When a CDI investigation supports the cessation of an in-pay case,
                  SSA program savings are projected by multiplying the actual monthly benefit times 60 months.
                  2
                   Non-SSA savings are also projected over 60 months whenever another governmental program
                  withholds benefits as a result of a CDI investigation, using estimated or actual benefit amounts
                  documented by the responsible agency.
                  3
                      California has two units, one in Los Angeles, and the other in Oakland.
                  4
                      Texas has two units, one in Dallas, and the other in Houston.




16   •  Impact
 October 1, 2006 Thru March 31, 2007	                        SSA Office of the Inspector General



The following CDI case summaries highlight       partial paralysis of his lower extremities.
major investigations we conducted during         The case was referred to the CDI unit by the
this reporting period which enhanced SSA         Oregon City SSA office which had received
program integrity and the reliability of SSA’s   information indicating that the man owned
operations.                                      and operated his own business.

CDI: Woman Uses Twin Sister’s                    During a previous SSA work review, the man
Identity to Conceal Employment                   had indicated that although he did spend
                                                 his days at his wife’s business, he was not
Our Chicago CDI unit received an allegation      working. Our investigation revealed that in
from the Hillside, Illinois SSA office that a    fact, the man was actively running his own
Title II disability beneficiary was concealing   metal fabrication shop. Surveillance and
work activity. Our investigation revealed        interviews showed the man was working
that although the subject was determined         40 hours per week, managing nine employees,
to have been disabled in May 1997, wages         and planning to expand his business. The
were routinely posted to her SSA earnings        man, who had previous work experience as a
record, showing steady employment. When          metal fabricator, had registered the business
SSA questioned the woman, she claimed that       in his wife’s name to prevent SSA from
she was still disabled and unable to work, and   becoming aware of his earnings as well as to
asserted that her twin sister was using her      circumvent the State child support system,
SSN to work.                                     to which the man was in arrears. SSA ceased
                                                 the man’s disability benefits and assessed
Our investigation revealed that the woman’s      an overpayment, including benefits to his
twin sister died more than 50 years ago.         children, of $53,315.
Further investigation revealed that the
beneficiary had worked for a health care         CDI: Man Claiming Broken Leg and
organization for the last 6 years. When          Ankle Rides Bicycle
investigators interviewed the woman at
her place of employment, she admitted she        Our Iselin, New
provided false information to SSA.               Jersey CDI Unit
                                                 investigated a 47-year-
The woman pled guilty to theft of Government     old man who applied
funds and was sentenced in February 2007 to      for SSI disability
2 years’ probation, 5 months’ home detention,    payments after the
and 200 hours of community service, and          New Jersey Disability
was ordered to pay restitution of $89,314        Determination
to SSA. The woman also submitted a new           Services forwarded the
application for Title II disability benefits,    case for being at high
which SSA denied.                                risk for fraud or similar
                                                 fault. The man alleged
CDI: Man Runs Metal Fabrication                  that he was disabled
Business while Receiving Title II                due to a broken leg
Disability Benefits                              and a broken ankle.
The Salem, Oregon CDI Unit investigated          He also alleged having a severe spinal injury,
a 35-year-old man who began receiving            severe headaches, back pain, and shortness
Title II disability benefits in 2002 for         of breath.



                                                                                                   Impact  •  17
                 Semiannual Report to Congress	               October 1, 2006 Thru March 31, 2007



                 CDI unit investigators observed the
                 man walking at a normal pace without
                 the use of an assistive device. He walked
                 down a ramp to a bicycle, bent over to
                 open the lock, and walked down three
                 steps with the bike in his hands. Our
                 investigators then followed the man as
                 he rode the bike for approximately one
                 mile down a busy street, at one point
                 pedaling up a hill.
                 The man’s SSI claim was denied.

                 Legal Impact Initiatives
                 OCCIG improves SSA program
                 integrity from a different perspective,
                   through its administration of the
                       CMP provisions of Section 1140
                         of the Act. This section prohibits
                          the use of SSA’s program
                          words, letters, symbols, or
                          emblems in advertisements
                         or other communications in
                       a manner that falsely implies
                 SSA’s approval, endorsement, or
                 authorization. An individual or entity
                 that violates this provision is subject
                 to a maximum penalty of $5,000 for
                 each misleading communication. Our
                 nationwide enforcement efforts serve
                 as a meaningful deterrent in this area
                 and continue to positively impact
                 SSA’s mission. In fact, as a result of
                 our many successful CMP actions to
                 date, we have seen a significant decline
                 in complaints and cases over the years
                 as it has become clear that this type of
                 misleading activity will be met with a
                 swift response.




18   •  Impact
 October 1, 2006 Thru March 31, 2007	                           SSA Office of the Inspector General




Value                                               individual’s last day of employment was in
                                                    a position covered by both Social Security
All OIG initiatives strive to provide value         and a State or local government pension plan.
to SSA, the Congress, other key decision-           The Social Security Protection Act of 2004
makers, and the public by delivering timely and     amended GPO provisions to require that
reliable audit, investigative, and legal products   after July 1, 2004, only those employees who
and services. To achieve the intended value,        were covered by Social Security during their
these products and services must effectively        last 5 years of employment will be exempt
meet the needs of all whom we serve while           from the GPO. We conducted this review
maximizing our available resources. To do           based on an allegation that approximately
this, we integrate best-practice strategies         22,000 individuals had paid fees to 15 Texas
and the newest technologies to increase our         school districts to spend their last day of
productivity and maximize our return on             employment as non-professional employees,
investment to the public. Taken together,           in order to be exempted from the GPO
our audits, investigations, and legal efforts       reduction.
generated a positive return during the first        We found that the school districts re-hired the
half of FY 2007.                                    1-day workers primarily to generate revenue
                                                    for their districts, and that the fees paid by
Value Attained Through                              the workers to participate in the program
                                                    far exceeded a single day’s wages. Although
Audits                                              the school districts hired these individuals
The focal point of many of our audits is the        as “full-time” employees to qualify them for
identification of SSA program and operational       Social Security coverage, the vast majority
areas where funds could be put to better use.       worked for only 1 day. Thus, we determined
In addition, we have often isolated situations      that the individuals in our review did not
where we have questioned approaches and             appear to meet the requirements for a GPO
their costs and have recommended alternatives       exemption. Unless SSA changes its policies
to yield program and operational savings.           and procedures for evaluating individuals who
                                                    are eligible for GPO exemptions, we estimate
During this reporting period, our auditors          that these 22,000 individuals will receive
issued 44 reports with recommendations              $128 million annually in spousal benefits to
identifying over $443 million in questioned         which they may not be entitled. Over their
costs and over $2.8 billion in Federal funds        lifetimes, these individuals could cost the
that could be put to better use. Some of our        Social Security Trust Funds $2.5 billion.
most notable audits are summarized below.
                                                    We made several recommendations to SSA,
Benefit Payment Audit: Government                   including that the Agency reevaluate the
Pension Offset Exemption for Texas                  decisions to grant GPO exemptions to the
School Districts’ Employees                         individuals identified in this allegation. SSA
                                                    agreed to ensure that appropriate agreements
The GPO provides for a reduced Social               are in force for the school districts and
Security spousal benefit for individuals            take appropriate action if it identified any
who receive a pension from a Federal, State         problems. However, SSA feels that it has
or local government based on work where             properly applied the “last day” exemption
Social Security taxes were not paid. However,       based on existing statutes and regulations.
until recently, the GPO did not apply if the


                                                                                                      Value  •  19
              Semiannual Report to Congress	                             October 1, 2006 Thru March 31, 2007



              Benefit Payment Audit: Title II                   Benefit Payment Audit: Impact of
              Disability Insurance Benefits with                Statutory Benefit Continuation on
              Workers Compensation Offset                       Disability Insurance Benefit Payments
                                                                Made During the Appeals Process
              We recently conducted an audit to determine
              the accuracy of payments of Title II Disability   In this review, we evaluated the financial
              Insurance (DI) claims with WC offsets.            impact on the DI Trust Fund when
              Workers injured on the job may qualify for        beneficiaries continue to receive DI benefits
              State and Federal WC benefits in addition to      while appealing a medical cessation decision.
              DI benefits. To prevent workers from earning      CDRs are performed on DI beneficiaries to
              more while disabled than while working,           assess whether individuals remain medically
              Congress enacted the WC offset provision,         eligible for DI payments. If an individual
              which requires SSA to reduce DI payments          is found to be no longer medically eligible
              by the amount of WC benefits.                     and SSA terminates benefits, he or she may
                                                                appeal the decision. The Act provides the
              We identified 234,968 DI claims in which          option for benefit continuation during the
              SSA records indicated that a WC offset            appeal process; however, payments made
              began between 1998 – 2004, and reviewed           during the appeals process are considered
              a random sample of 250 claims. Although           overpayments if the cessation is upheld.
              the payment accuracy of WC offset claims
              improved in comparison to the error rates         We reviewed 500 cases from a file of all
              reported in our previous WC reviews, some         individuals who received an ALJ decision from
              payment errors continue to exist. Of the          October 1, 2002 – September 30, 2004 in
              250 claims, 43 (17 percent) had payment           cases where a CDR initially determined that
              errors. Of these errors, 27 were directly         disability had ceased. Based on our review,
              related to the WC offset calculation, and         we estimated that SSA paid approximately
              these errors totaled $158,590. Based on           $86.4 million in continuing DI payments
              our sample results, we estimated that             during this time period to beneficiaries who
              approximately 25,377 DI claims totaling           appealed the cessation decision to an ALJ.
              about $149.1 million had payment errors           We project that about $43.9 million of these
              related to the WC offset.                         continuing benefits became overpayments
                                                                when an ALJ affirmed the decision that the
              Though we found that most payment                 beneficiary was no longer eligible to receive DI
              mistakes resulted from human error, we            benefits. Of the overpayments, we projected
              were encouraged by a software enhancement         that only about 18.7 percent ($8.2 million)
              which automated some aspects of the process.      were collected or are in the process of being
              However, accuracy still depends on SSA staff      collected; the remaining 81.3 percent ($35.7
              decisions and the data they record when           million) were either waived or suspended,
              processing claims. SSA agreed with all of         or SSA had not yet decided what action to
              our recommendations, including that SSA:          take.
              (1) support legislation that would simplify
              and standardize the WC offset calculations;       Our findings showed that continuing
              (2) explore the feasibility of electronic data    benefits during appeals results in such
              exchanges with States; and (3)increase            large overpayments because SSA’s business
              management oversight of the WC offset             process for making appeals decisions was not
              calculation.                                      as efficient as it could be. For beneficiaries
                                                                in our sample who received a cessation


20 •  Value
October 1, 2006 Thru March 31, 2007	                            SSA Office of the Inspector General



decision from an ALJ, overall average               information resulting from computer matches
processing time was 648 days. SSA agreed            before taking action to stop benefit payments,
with our recommendation that SSA make               SSA policy is to verify death reports
more timely decisions on medical cessation          received from third parties—including the
appeals to lessen the financial impact of           Centers for Medicare and Medicaid Services
benefit continuation.                               (CMS)—before stopping SSI payments.
                                                    However, we found that the SSI payments
In response to our report, ODAR stated              to these 85 individuals were stopped without
that it will provide additional guidance and        verification because of limitations in SSA’s
direction to its field managers to identify         computer systems.
statutory benefit continuation cases upon
receipt in the hearing office and develop           SSA agreed to our recommendations,
procedures for accelerated movement within          including that SSA review the cases we
the hearing office. The hearing office will alert   identified in our audit and take appropriate
the appropriate SSA component to cease              action, and that SSA confirm deaths reported
benefits as soon as an affirmation is issued.       from CMS before terminating payments to
                                                    SSI recipients.
Benefit Payment Audit: SSI Recipients
Whose Medicare Benefits Were                        Benefit Payment Audit: Follow-
Terminated Due to Death                             up on SSA’s Procedures to Identify
                                                    Representative Payees Who Are
We conducted this audit based on a suggestion       Deceased
from an SSA employee who had identified
several cases in which the Agency continued         Representative payees receive and manage
to make SSI payments to recipients whose            Social Security benefits and/or SSI payments
Medicare benefits had been terminated for           for beneficiaries and recipients who are not able
death. Using Medicare benefit information           to do so themselves. In our September 1999
supplied by SSA, we identified 251 individuals      report, The Social Security Administration’s
whose SSI payments continued even though            Procedures to Identify Representative Payees
their Medicare records indicated they               Who Are Deceased, we determined that
were deceased. Of these, we found that 86           SSA’s procedures did not ensure that new
(34 percent) were actually deceased, and            representative payees were selected when
SSA had stopped SSI payments timely                 current payees died. As a follow-up to our
for 19 of these individuals. However, SSA           previous report, we conducted this audit to
did not terminate SSI eligibility for the           determine whether SSA now identifies all
remaining 67 individuals, which led to a            cases in which a new representative payee is
total of $490,288 in incorrect payments. We         needed when the current payee dies.
estimated that SSA could save $237,103 over
the next 12 months by stopping payments to          We identified records that were incomplete
the deceased recipients.                            with regard to representative payee
                                                    information, or where payees appeared to
We also found that 165 of the 251 individuals       be deceased, and randomly selected 400
in our audit were alive and their Medicare          of these records for review. We found that
benefits were incorrectly terminated. Of            SSA’s current procedures still do not ensure
these, SSA had incorrectly terminated               that new payees are selected timely when the
SSI payments to 85 individuals. Because             existing payees die. Based on our review, we
the Privacy Act requires that SSA confirm           estimate that 2,025 deceased payees received



                                                                                                        Value  •  21
              Semiannual Report to Congress	                             October 1, 2006 Thru March 31, 2007




              $20.9 million in Social Security benefits, and   whose records we reviewed. For 259
              837 deceased payees received $4.6 million in     individuals (53 percent), SSA records
              SSI payments.                                    showed that they were ordered to pay
                                                               restitution, but repayments were not being
              Even though most of the beneficiaries and        made at the time of our review. For the
              recipients whose records we reviewed had         remaining 147 (30.1 percent) of the 488
              their needs met while monies were being          individuals, we found no record of either
              paid to deceased payees, some individuals        an overpayment or repayment in SSA’s
              could be at risk. We acknowledged that SSA       electronic systems. These 147 individuals
              had taken steps to improve its performance       were ordered by courts to repay over
              in this area, with plans to update computer      $7 million in restitution, which included
              systems in March 2007 to further address         overpayments, fines and penalties. In
              this issue. In addition, SSA agreed with         addition, we found that 53 of these 147 were
              our recommendations, including that the          not recorded on DOJ debt collection records
              Agency: (1) ensure that the needs of the         either. Finally, our review found that SSA
              remaining beneficiaries and recipients in        staff lacked updated procedures regarding
              our population are being met and that all        how to recover overpayments related to
              deceased payees are replaced with new            court-ordered restitution.
              payees; and (2) continue its efforts to
              upgrade systems to ensure that deceased          SSA agreed with our recommendations,
              payees are identified and replaced.              including that SSA record and/or pursue
                                                               collection efforts for those individuals in our
              Benefit Payment Audit: SSA’s                     review who were not making restitution; and
              Collection of Court-Ordered                      establish coordinated collection efforts with
              Restitution                                      DOJ to ensure that all restitution-related
                                                               overpayments are pursued.
              In this review, we examined the records of
              individuals who were ordered by courts
              to pay restitution to SSA as part of a           Value Attained Through
              fraud conviction, to assess SSA’s success        Investigations
              in collecting these funds. We identified
              488 individuals who were ordered in                          During this reporting period,
              FY 2004 to pay restitution of more than                       the efforts of our investigators
              $10,000, totaling about $23 million. We                       yielded significant results
              examined these individuals’ records for                       arising from the successful
              evidence of court-ordered restitution, the                    prosecution of cases that we
              related benefit overpayments, and any                         developed. Our investigators
              repayments made. We also reconciled SSA’s               achieved over $179 million in
              recorded cases to those recorded with the        investigative accomplishments, with over
              DOJ.                                             $38 million in SSA recoveries, restitution,
                                                               fines, settlements, and judgments and over
              We found room for improvement in SSA’s           $140 million in projected savings from
              efforts to collect overpayments related to       investigations resulting in the suspension
              court-ordered restitution. We found that
                                                               or termination of benefits.
              SSA was actively receiving repayment from
              82 (16.9 percent) of the 488 individuals



22 •  Value
 October 1, 2006 Thru March 31, 2007	                         SSA Office of the Inspector General



The following table represents the efforts        11 terrorist attacks to provide assistance to
of OI personnel nationwide to recover SSA         businesses in lower Manhattan that had been
funds paid in fraudulent benefits or through      affected by the attacks. The man pled guilty
other illegal actions.                            to theft of government property, mail fraud,
                                                  and SSN misuse. In November 2006, he was
The case summaries below are indicative           sentenced to 15 months’ incarceration and
of the more than 5,300 investigations that        was ordered to make full restitution to the
we closed during this reporting period. The       World Trade Center Business Recovery and
cases we have highlighted illustrate the many     Grant Program.
instances where our investigative efforts have
afforded a significant return on the investment   SSN Misuse: Grocery Chain Ordered
of our staff and resources.                       to Pay Restitution to Locked-Out
                                                  Employees
             SSA Funds Reported                   Our Los Angeles office initiated an
            (10/01/06 – 3/31/07)                  investigation of a grocery store chain based
                                                  upon information provided by the United
Recoveries                         $21,845,480    States Attorney’s Office for the Central
                                                  District of California. Our investigation
Fines                                  $784,847   revealed that the company conspired to
                                                  rehire hundreds of employees it had locked
                                                  out during a labor dispute by asking them to
Settlements/Judgments                  $522,088
                                                  use false names and SSNs. The grocery store
                                                  chain also failed to make proper and adequate
Restitution                        $15,115,742    contributions to employee benefit funds, and
                                                  attempted to conceal this information from
Estimated Savings                 $140,814,075    the Government.

Total                            $179,082,232     In November 2006, the corporation pled
                                                  guilty to conspiracy, false representation of
                                                  an SSN, falsification and concealment of
SSN Misuse: Man Defrauds 9/11 Grant               material facts, and making false statements.
Program of $118,876                               The corporation was sentenced to 3
                                                  years’ probation and was ordered to pay
Agents from our New York City office
                                                  a $20 million fine as well as restitution of
opened this investigation based on a
                                                  $50 million to the locked-out employees.
request for investigative assistance from the
U.S. Department of Housing and Urban              Disability Program Fraud: Woman
Development OIG. The investigation
                                                  Using Two SSNs Defrauds SSA of
revealed that a man had misused other
people’s SSNs to defraud the World Trade          $137,183
Center Business Recovery and Grant                Our Indianapolis office initiated this
Program of $118,876, and attempted to             investigation based on a referral received
defraud the World Trade Center Small              from SSA’s Center for Security and Integrity
Firm Attraction and Retention Grant               in Chicago. A Title II disability beneficiary
Program of $50,000. These grant programs          was allegedly receiving SSA benefits under
were established following the September          two different names and SSNs, and failed to


                                                                                                    Value  •  23
               Semiannual Report to Congress	                              October 1, 2006 Thru March 31, 2007



              report her employment and income to SSA.            sentenced to 5 months’ incarceration and
              Our investigation found that the woman had          3 years’ supervised release, and was ordered to
              obtained a second SSN in a different name,          pay restitution of $125,227 to SSA.
              and in April 1988, she applied for disability
              benefits using that name and SSN. She was           Disability Program Fraud: Construction
              awarded benefits, which she received until          Company Owner Conceals Work Activity
              2005. From 1989 – 2004, she was also
              employed under her real name, earning more          Our San Francisco office initiated this
              than $200,000.                                      investigation upon receiving an allegation of
                                                                  work concealment from the Lodi, California
              In November 2003, the woman applied for             SSA office. The investigation revealed that,
              and was awarded Title II disability benefits        in 2001, a man applied for and was awarded
              under her real name, falsely stating that she       Title II disability benefits, but failed to advise
              had not previously filed a benefit application      SSA that he was still working. The man then
              with SSA. From 1992 – 2005, she received            continued to operate a construction company
              $137,183 in Title II disability benefits under      while collecting disability payments. As a
              both identities. The woman admitted to our          result of our investigation, SSA determined
              agents that she concealed her two identities        that the man was ineligible for benefits from
              from SSA because she needed the money to            his date of entitlement, and terminated his and
              pay her own personal expenses. The woman            his children’s benefits. The man pled guilty to
              pled guilty to making false statements to           failing to report an event affecting benefits,
              SSA, and was sentenced in November 2006             and was sentenced in February 2007 to
              to 5 months’ incarceration and 5 months’            5 months’ incarceration, 5 months’ community
              supervised release. She was ordered to pay          confinement, and 3 years’ supervised release.
              full restitution to SSA.                            He was also ordered to pay restitution of
                                                                  $107,678 to SSA.
              Disability Program Fraud: Psychologist
              Fakes Mental Disorder to Receive                    Representative Payee Fraud: Daughter
              Disability Benefits                                 Cashes Deceased Mother’s Social
                                                                  Security Checks
              Our Ft. Lauderdale office conducted this
              investigation based on a referral from the          Agents from our Batavia, New York office
              Florida Department of Financial Services,           investigated a representative payee who
              Division of Insurance Fraud. The referral           concealed her mother’s death. Our investigation
              alleged that a disabled man was working             revealed that the woman, who acted as
              and receiving Social Security benefits. Our         representative payee for her mother, an SSI
              investigation revealed that a Title II disability   recipient, continued to receive and negotiate
              beneficiary, receiving benefits for a mental        her mother’s checks after her mother’s death.
              condition, concealed his self-employment            We determined that the checks were for
              income as a psychologist. He also served as         the period of December 1993 – May 2005.
              a psychologist in the military reserves while       In December 2006, after pleading guilty to
              holding the rank of captain. Our investigation      theft of Government funds, the woman was
              further revealed that on six occasions he falsely   sentenced to 5 years’ supervised probation and
              claimed nonreceipt of his benefit check, and        was ordered to pay restitution of $81,438 to
              then cashed both the original and replacement       SSA.
              checks. In October 2006, after pleading guilty
              to theft of Government funds, the man was


24 •  Value
 October 1, 2006 Thru March 31, 2007	                            SSA Office of the Inspector General



Representative Payee Fraud: Mother                    Value Attained Through Legal
Fails to Notify SSA of Son’s Work
                                                      Initiatives
Agents in our Jackson, Mississippi office
opened an investigation of a representative           Our efforts to administer that portion of the
payee based on a referral from the SSA area           CMP program that deals with violators of
director’s office. We determined that a woman         Section 1129 of the Act, also maximize the
who acted as representative payee for her son         resources available to us and create a positive
had failed to notify SSA when he returned to          return on investment. Section 1129 of the Act
work. When interviewed by our agents, she             allows OCCIG to impose CMPs against those
admitted concealing her son’s employment              who make false statements or representations
activity, and converting his Title II disability      in connection with obtaining, or retaining
benefits to her own personal use. The woman           benefits or payments under Titles II, VIII, or
pled guilty to failing to report an event affecting   XVI of the Act. The Social Security Protection
benefits and was sentenced in December 2006           Act of 2004 (Public Law 108-203) extended
to 6 months’ home confinement and 5 years             CMP authority to penalize representative
of supervised release. She was also ordered to        payees for wrongful conversion of payments
pay restitution of $52,070 to SSA.                    made under the Social Security programs,
                                                      and to penalize individuals who knowingly
Double Check Negotiation (DCN)                        withhold a material fact. After consultation
Project: Woman Claims Non-Receipt of                  with DOJ, OCCIG is authorized to impose
17 Replacement SSI Checks                             penalties of up to $5,000 against individuals
                                                      for each false statement, representation,
Our Pittsburgh, Pennsylvania office conducted         conversion, or omission. A person may also be
this investigation as part of the national            subject to an assessment, in lieu of damages, of
DCN project, which targets individuals who            up to twice the amount of any overpayment.
repeatedly allege non-receipt of SSI checks
in order to receive a replacement check, and          The following table and cases highlight the
then cash both the original and replacement           value achieved through our Section 1129
checks. This investigation, which originated as       efforts for this reporting period.
a referral from the Monroeville, Pennsylvania
SSA office, revealed that an SSI recipient                   False Statements Under
cashed 17 replacement checks for herself, her
son, and her daughter after she had already                   Section 1129 Results
cashed the original checks. These double-                       (10/01/06 – 3/31/07)
check negotiations, totaling $8,934, occurred
from August 2001 – December 2005. The
woman entered into a pretrial diversion                Cases Received                  272
program in November 2006, agreeing to full
restitution to SSA via a monthly reduction of          Cases Initiated                 173
her SSI payment.
                                                       Cases Closed                    255

                                                       Penalties and
                                                                                   $1,296,251
                                                       Assessments
                                                       Number of Hearings
                                                                                        10
                                                       Requested

                                                                                                         Value  •  25
               Semiannual Report to Congress	                             October 1, 2006 Thru March 31, 2007



              Retired Officer Penalized for Concealing           $29,561. OCCIG negotiated a settlement
              Income and Resources to Receive SSI                in which the woman agreed to pay $39,561,
                                                                 which includes the overpayment as well as a
              In 2004, SSA began to receive IRS alerts           $10,000 penalty.
              regarding a retired Pennsylvania State police
              officer who was receiving SSI based on an          Denver Mother Falsely Claiming Custody
              injury he sustained in the line of duty. The       of Son Assessed $19,954 Penalty
              IRS indicated that the man was also receiving
              a pension and earning wages. Between               In an attempt to increase her monthly SSI
              May 2004 – March 2006, SSA interviewed             payment, a Denver woman made a false
              the man six times regarding these IRS alerts.      statement regarding her living arrangements.
              Each time, the man denied that any of the          She reported to SSA that her son had been
              earnings belonged to him, claiming instead         living with her since April 1999. However, our
              that he had been the victim of identity theft.     OI determined that the boy had been living
                                                                 with his father since at least February 1998.
              An OIG investigation subsequently revealed
              that the man was, indeed, receiving a              OCCIG imposed an assessment in lieu of
              disability pension from the Commonwealth           damages of $14,954 in addition to a penalty
              of Pennsylvania, and also that he held two         of $5,000 for making the false statement
              jobs. He worked as a dog and horse trainer,        regarding her living arrangements. The
              frequently winning purses related to the           subject failed to respond to any OCCIG
              animals he trained, and he taught a forensic       correspondence regarding a settlement
              science class at a local community college.        negotiation, and did not request a hearing
              Because he failed to report any of this income     to challenge the penalty and assessment. As
              to SSA, the man fraudulently received more         a result, the $19,954 CMP became final by
              than $50,000 in SSI payments.                      default, and is currently being collected by
                                                                 SSA.
              In a CMP action, OCCIG identified each
              false statement made to facilitate this fraud
              scheme. Ultimately, OCCIG negotiated a
              settlement with the retired officer in which he
              agreed to pay an assessment in lieu of damages
              of $51,000 and a penalty of $15,000.

              Massachusetts Woman Agrees to CMP
              of $39,561 for Concealing Marriage
              On five occasions from April 2002 – January
              2005, a Massachusetts woman made false
              statements to SSA on forms used to determine
              SSI benefit eligibility. Specifically, the woman
              did not report that she had a husband who
              was living with her, a material fact which made
              her and her six minor children ineligible for
              benefits. An OIG investigation confirmed
              that the woman had lived with her husband
              since 1999. As a result of the woman’s
              false statements, SSA overpaid the woman


26 •  Value
 October 1, 2006 Thru March 31, 2007	                        SSA Office of the Inspector General



People                                            data. This allows us to determine optimal
                                                  timeframes for recruiting new employees.
We credit our continued success to our            We aggressively recruit to ensure that OIG
employees. We are committed to maintaining        components have the necessary resources to
a highly skilled and motivated workforce.         fulfill their respective missions.
OIG leadership fosters an environment             We work diligently to pursue and retain the
where employees are strongly encouraged to        best employees possible. We use structured
take advantage of career-enhancing training       interviews to fairly and accurately assess job
opportunities and developmental assignments.      candidates. Our human capital specialists
The OIG Organizational Health Committee           and recruiters participate in job and career
annually assesses employee satisfaction levels    fairs nationwide. These events target
and seeks to address areas of concern. In         underrepresented groups in the labor market,
addition, each OIG component conducts             allowing us to continue efforts toward creating
annual training conferences that serve the dual   and maintaining a diverse workforce.
purposes of educating and promoting a sense
of unity among its employees.
                                                  Information Technology (IT)
Budget                                            We provide and maintain most of our own
                                                  IT systems. We value state-of-the-art tools
For FY 2007, our annual appropriation is          and place a high priority on ensuring that our
$92 million, which funds 605 full-time-           employees have the latest proven technologies
equivalents and related support costs. Of this    with which to perform their work.
amount, approximately 84 percent goes toward
the salaries and benefits of our employees. The   To support our goal of maintaining a top-
remaining 16 percent pays for our support         notch workforce, we recently implemented
costs, rent and telecommunications, and,          an automated system to allow the processing
discretionary spending (travel, training and      and maintenance of information related to
general operational procurements). This           vacancy announcements and hiring of new
budget allocation supports our efforts to         employees. We also continue to build a
meet or exceed the expectations stipulated in     comprehensive administrative database which
our Strategic Plan for Fiscal Years 2006-2010.    will allow for interconnectivity between all
The goals and accomplishments measured in         our components. We anticipate launching
our Strategic Plan are also published in the      modules for budget, workflow processing and
Annual Congressional Budget Justification.        facilities management.
                                                  In support of the President’s goal to expand
Human Capital Planning and                        electronic services, we maintain an Internet
Management                                        website which is informative and useful to the
                                                  public. As more citizens interact with Federal
OIG managers monitor staffing throughout          agencies online, we realize the importance of
our organization to ensure that vacant            creating and maintaining easy-to-understand
positions are filled swiftly with qualified       web-based services. A workgroup comprised
candidates. Our integrated budget and staffing    of auditors, investigative personnel, legal
plan forecasts employee departures based          experts, and administrative technicians
on historical trends and human resource           monitors every page and link on our website.



                                                                                               People  •    27
               Semiannual Report to Congress	                              October 1, 2006 Thru March 31, 2007



               We are committed to ensuring that the public       the law enforcement field, and allows the
               can obtain accurate and helpful information        individual an opportunity to learn about an
               quickly and easily.                                agency in their area of interest.
               We keep abreast of industry trends to              • In March 2007, the Special Agent-in-
               determine what new technologies may best be        Charge of our Denver Field Division
               suited for enhancing our business processes.       organized a conference for Federal and local
               During this reporting period, we have begun        law enforcement regarding the growing
               to implement technology that will improve our      challenge of identity theft, in coordination
               disaster recovery capabilities. In addition, our   with the Federal Trade Commission.
               software specialists and contract personnel
               continue to enhance and expand our National        In addition, our External Relations Division
               Investigative Case Management System,              has been working to deliver OIG’s messages to
               which serves as a model for case management        the public through interviews with television
               across the Federal Government.                     and print media outlets across the country. In
                                                                  November 2006, our Deputy Chief Counsel
                                                                  for External Relations gave a live television
               Outreach Efforts                                   interview to a local Fox affiliate warning the
                                                                  public about a scam in which individuals
               We are always seeking new ways to reach            were posing as Social Security employees to
               out to the wider Federal community as well         steal benefit payments from elderly Baltimore
               as to members of the public. In a variety of       residents. We have also provided information
               venues, we share our mission of promoting          for newspaper articles concerning SSN misuse
               integrity and excellence in Social Security        and fraudulent identity document rings.
               programs and operations. These occasions
               are important opportunities to exchange
               information and forge partnerships. They           Hurricane Response Efforts
               also give us the chance to educate and inspire
               public confidence in Federal programs.             We continue to be actively involved in
                                                                  pursuing investigations of fraud related to
               Following are highlights of our outreach           Hurricanes Katrina and Rita and helping
               efforts during this reporting period:              SSA prepare for similar events in the future.
                                                                  Our auditors have completed three hurricane-
               • The Inspector General spoke to the               related audits, assessing SSA’s service delivery
               Baltimore chapter of the Association               and its accountability over: 1) duplicate
               of Government Accountants regarding                payments, equipment, and records; and 2)
               “Safeguarding the Social Security Number”          disaster relief funds. In addition, attorneys
               in November 2006.                                  from our Office of the Chief Counsel have
               • The Special Agent-in-Charge of our               represented the OIG on the PCIE Homeland
               Philadelphia Field Division helped create          Security Roundtable, the collaborative effort
               a mentoring program in cooperation with            for hurricane recovery oversight across Federal
               the National Organization of Black Law             agencies.
               Enforcement Executives and the Delaware            Because the SSN is a key identifier for
               Police Chiefs Foundation. The program is           the various relief programs, SSA OIG is a
               designed to connect graduates and college          critical partner in multi-agency investigations
               students with law enforcement executives,          of hurricane-related fraud. At the close of
               managers, supervisors, and line officers in        this reporting period, our OI had opened


28 •  People
October 1, 2006 Thru March 31, 2007	                          SSA Office of the Inspector General



57 investigations and secured 42 indictments       received Disaster Unemployment Assistance
and 28 convictions of individuals for hurricane-   funds. The man submitted numerous
related fraud. Following are highlights of our     applications containing false identities and
hurricane-related investigative activity during    SSNs to the Louisiana Department of Labor,
this reporting period.                             claiming that the identities were victims of
                                                   Hurricane Katrina. As a result of his actions,
Woman Fraudulently Claims Daughters                he fraudulently received $15,092 in hurricane
Died in Hurricane                                  relief monies. In October 2006, after pleading
                                                   guilty to wire fraud and illegal use of an
Agents from our Swansea, Illinois office           SSN, the man was sentenced to18 months’
investigated a 34-year-old SSI recipient           incarceration and 5 years’ supervised release,
who concealed information from SSA. The            and was ordered to pay restitution of $15,092
investigation revealed that the woman was          to FEMA.
receiving SSI because she failed to report
her marriage and her husband’s income. In          Woman Sentenced to 18 Months in
addition, the woman obtained $4,358 from           Prison for Defrauding FEMA
the Federal Emergency Management Agency)
(FEMA) in September 2005 by using a false          In cooperation with the FBI, DHS OIG,
SSN to file for hurricane assistance through       United States Secret Service, and other
the internet. Before her scam was exposed, the     agencies, agents from our Baton Rouge,
woman presented a gut-wrenching account of         Louisiana office investigated a 27-year-old
how Hurricane Katrina’s floodwaters washed         Baton Rouge resident for making a fraudulent
away her two young daughters (ages 5 and 6)        FEMA application. Our investigation revealed
and displaced her, destroying everything she       that the woman had filed a fraudulent FEMA
owned and forcing her to flee to Belleville,       application for hurricane disaster aid using a
Illinois.                                          false New Orleans address and a false SSN. In
                                                   October 2006, after pleading guilty to making
Our review of SSA records indicated that the       a false claim, she was sentenced to 18 months’
woman actually had moved from Arkansas to          incarceration and 3 years’ supervised release,
Belleville in July 2004, and was not near the      and ordered to pay restitution of $2,000 to
Gulf Coast when Hurricane Katrina came             FEMA.
ashore. SSA records also showed no evidence
that the woman had daughters. In January
2006, after pleading guilty to defrauding
SSA, the woman was sentenced to 4 years                     A Special Thank You
in Federal prison and was ordered to pay
restitution of $24,000 for various offenses,          The diligent work, outstanding
including $13,266 to SSA.                             efforts, and many contributions of our
                                                      entire OIG staff make the numerous
Man Applies for Hurricane Relief Funds                accomplishments highlighted in this
Using Multiple False Identities                       Semiannual Report to Congress
                                                      possible.
Agents from our Baton Rouge, Louisiana
office, in coordination with the FBI, United          We would like to thank them for their
States Secret Service, DHS OIG, and various           dedicated spirit and many successes.
other agencies, investigated a 41-year-old
Orlando, Florida resident who fraudulently



                                                                                                People  •    29
     Semiannual Report to Congress	   October 1, 2006 Thru March 31, 2007




30
October 1, 2006 Thru March 31, 2007	   SSA Office of the Inspector General




           Reporting Requirements
                    and
                 Appendices




                                                       Reporting Requirements  •   31
              Semiannual Report to Congress	                                October 1, 2006 Thru March 31, 2007



              Reporting Requirements
              This report meets the requirements of the Inspector General Act of 1978, as amended, and
              includes information mandated by Congress.



                     Section                              Requirement                              Page(s)

                   Section 4(a)(2)     Review of legislation and regulations


                   Section 5(a)(1)     Significant problems, abuses, and deficiencies


                   Section 5(a)(2)     Recommendations with respect to significant problems,
                                       abuses, and deficiencies

                   Section 5(a)(3)     Recommendations described in previous Semiannual          Appendices F
                                       Reports on which corrective actions are incomplete           &G

                   Section 5(a)(4)     Matters referred to prospective authorities and the
                                       prosecutions and convictions that have resulted

                 Section 5(a)(5) &
                                       Summary of instances where information was refused
                  Section 6(b)(2)


                   Section 5(a)(6)     List of audits                                             Appendix B


                   Section 5(a)(7)     Summary of particularly significant reports

                                       Table showing the total number of audit reports and
                   Section 5(a)(8)                                                                Appendix A
                                       total dollar value of questioned costs

                                       Table showing the total number of audit reports and
                   Section 5(a)(9)                                                                Appendix A
                                       total dollar value of funds put to better use

                                       Audit recommendations more than 6 months old for
                  Section 5(a)(10)                                                                Appendix A
                                       which no management decision has been made

                                       Significant management decisions that were revised
                  Section 5(a)(11)
                                       during the reporting period

                                       Significant management decisions with which the
                  Section 5(a)(12)                                                               Appendix D
                                       Inspector General disagrees




32  •  Reporting Requirements
October 1, 2006 Thru March 31, 2007	                                    SSA Office of the Inspector General




Appendix A: Resolving Audit Recommendations
The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection
of questioned and unsupported costs. Questioned costs are those costs that are challenged because of a
violation of law, regulation, etc. Unsupported costs are those costs that are questioned because they are
not justified by adequate documentation. This information is provided in accordance with P.L. 96- 304
(the Supplemental Appropriations and Recession Act of 1980) and the Inspector General Act of 1978, as
amended.


                      Reports with Questioned Costs for the Reporting Period
                                 October 1, 2006 through March 31, 2007
                                                          Number Value Questioned Value Unsupported
    A.	For which no management decision had been made
                                                               7                 $42,090,644                      $0
       by the commencement of the reporting period.

    B.	 Which were issued during the reporting period.        14a               $443,275,795                  $75,384

    				              Subtotal (A + B)                        21                $485,366,439                  $75,384

    	 Less:

    C.	 For which a management decision was made
                                                              10                $458,499,979                    $333
        during the reporting period.

    	 i.	 Dollar value of disallowed costs.                    8                $241,518,027                    $333

    	 ii.	 Dollar value of costs not disallowed.               2                $216,981,952                      $0

    D.	For which no management decision had been made
                                                              12                 $26,866,460                  $75,051
       by the end of the reporting period.


­a. 	 See Reports with Questioned Costs in Appendix B of this report.
­




                                                                                                      Appendices  • 33
                                                                                                                    33
             Semiannual Report to Congress	                                         October 1, 2006 Thru March 31, 2007



           The following chart summarizes SSA’s response to our recommendations that funds be put to
           better use through cost avoidances, budget savings, etc.


                     Reports with Recommendations that Funds Be Put to Better Use
                       Reporting Period October 1, 2006 through March 31, 2007
                                                                                              Number   Dollar Value
             A.	For which no management decision had been made by the
                                                                                                1           $4,600,155
                commencement of the reporting period.

             B.	 Which were issued during the reporting period.                                 10a     $2,804,782,399

             			 Subtotal (A + B)                                                               11      $2,809,382,554

             	 Less:

             C.	 For which a management decision was made during the reporting
                 period.

              i.	Dollar value of recommendations that were agreed to by management.

                 (a) Based on proposed management action.                                       4        $110,407,498

                 (b) Based on proposed legislative action.                                      0                  $0

              ii.	   Dollar value of costs not agreed to by management.                         2        $128,142,155

             			 Subtotal (i + ii)                                                              6        $238,549,653

             D.	For which no management decision had been made by the end of the
                                                                                                5       $2,570,832,901
                reporting period.


              ­a.	   See Reports with Funds Put to Better Use in Appendix B of this report.




34  •  Appendices
34
October 1, 2006 Thru March 31, 2007	                                         SSA Office of the Inspector General



Appendix B: Reports Issued
                             Reports with Non-Monetary Findings
                               October 1, 2006 through March 31, 2007
Audit Number                                             Report                                           Issue Date

  A-03-05-25009    Effectiveness of the Young Children’s Earnings Records Reinstatement Process            10/20/2006

                   Management Advisory Report: Single Audit of the State of Florida for the Fiscal Year
  A-77-07-00001                                                                                            10/27/2006
                   Ended June 30, 2005
                   Management Advisory Report: Single Audit of the State of Maryland for the Fiscal
  A-77-07-00002                                                                                            10/27/2006
                   Year Ended June 30, 2005
                   Inspector General Statement on the Social Security Administration’s Major
  A-02-07-17075                                                                                            11/3/2006
                   Management Challenges

  A-15-06-16099    Social Security Administration’s Financial Report for Fiscal Year 2006                  11/7/2006

                   Management Advisory Report: Single Audit of the State of New York for the Fiscal
  A-77-07-00003                                                                                            11/22/2006
                   Year Ended March 31, 2005
                   Management Advisory Report: Single Audit of the Commonwealth of Pennsylvania for
  A-77-07-00004                                                                                            11/22/2006
                   the Fiscal Year Ended June 30, 2005
                   Costs Claimed by the Association of University Centers on Disabilities Contract
  A-15-07-17031                                                                                            12/1/2006
                   Number 600-01-60127 (Limited Distribution)
                   Management Advisory Report: Single Audit of the State of South Carolina for the
  A-77-07-00005                                                                                            12/4/2006
                   Fiscal Year Ended June 30, 2005
                   Congressional Response Report: Employer Feedback on the Social Security
  A-03-06-26106                                                                                            12/14/2006
                   Administration’s Verification Programs
                   Congressional Response Report: Accuracy of the Social Security Administration’s
  A-08-06-26100                                                                                            12/18/2006
                   Numident File

  A-14-05-14042    Impact of Unauthorized Employment on Social Security Benefits                           12/21/2006

  A-15-06-16091    MAXIMUS’ Indirect Cost Rates for Fiscal Years 2002 and 2003 (Limited Distribution)      12/21/2006

                   General Controls Review of the Florida Division of Disability Determinations Claims
  A-14-06-16023                                                                                            1/10/2007
                   Processing System
                   Follow-up: Analysis of Information Concerning Representative Payee Misuse of
  A-13-06-26097                                                                                            1/18/2007
                   Beneficiaries’ Payments
                   Contract for the Meridian Management Corporation at the Great Lakes Program
  A-05-07-17058                                                                                            1/29/2007
                   Service Center (Limited Distribution)
                   Management Advisory Report: Single Audit of the Hawaii Department of Human
  A-77-07-00007                                                                                             2/5/2007
                   Services for the Fiscal Year Ended June 30, 2005

  A-09-06-16101    The Las Vegas Social Security Card Center                                                2/8/2007


  A-15-06-16065    Controls over Representative Payee Accounting of Social Security Funds                  2/26/2007

  A-77-07-00008    Management Advisory Report: Single Audit of the Government of the District of           2/27/2007
                   Columbia for the Fiscal Year Ended September 30, 2005




                                                                                                            Appendices  • 35
                                                                                                                          35
             Semiannual Report to Congress	                                                October 1, 2006 Thru March 31, 2007




                                         Reports with Non-Monetary Findings
                                           October 1, 2006 through March 31, 2007
          Audit Number                                              Report                                            Issue Date

            A-15-06-16111   Performance Indicator Audit: Electronic Service Delivery                                   3/8/2007


            A-15-06-16109   Performance Indicator Audit: Claims Processing                                             3/16/2007

                            The Social Security Administration’s Accountability of Federal Emergency Management
            A-06-06-26138                                                                                              3/23/2007
                            Agency Funds Provided for Hurricane Relief Efforts
                            Management Advisory Report: Single Audit of the State of Illinois for the Fiscal Year
            A-77-07-00009                                                                                              3/23/2007
                            Ended June 30, 2005
                            Management Advisory Report: Single Audit of the State of New Jersey for the Fiscal Year
            A-77-07-00011                                                                                              3/23/2007
                            Ended June 30, 2005

            A-12-06-26130   Management’s Use of Workload Status Reports at Hearing Offices                             3/26/2007




36  •  Appendices
36
October 1, 2006 Thru March 31, 2007	                                      SSA Office of the Inspector General




                                 Reports with Questioned Costs
                               October 1, 2006 through March 31, 2007
Audit Number Issue Date                                        Report                                  Dollar Amount
                                Administrative Costs Claimed by the Vermont Disability Determination
  A-01-06-16041   10/27/2006                                                                                       $3,362
                                Services
                                Supplemental Security Income Recipients Whose Medicare Benefits
  A-01-06-26105   11/14/2006                                                                                     $490,288
                                Were Terminated Due to Death
                                Title II Disability Insurance Benefits with a Workers’ Compensation
  A-04-05-15133   11/22/2006                                                                                $216,278,326
                                Offset

  A-01-06-26131   12/11/2006    Title II Beneficiaries in England                                                 $24,049


  A-01-06-21093   12/20/2006    Childhood Continuing Disability Reviews and Age 18 Redeterminations         $199,165,109

                                Management Advisory Report: Single Audit of the State of Washington
  A-77-07-00006   1/18/2007                                                                                       $76,021
                                for the Fiscal Year Ended June 30, 2005
                                Administrative Costs Claimed by the Maryland Disability
  A-13-06-16029    2/5/2007                                                                                      $151,641
                                Determination Services

                   3/2/2007     The Social Security Administration’s Collection of Court-ordered
  A-02-06-26019                                                                                              $18,340,375
                                Restitution

                  3/23/2007     Direct Deposits for Multiple Title XVI Recipients into the Same Bank
  A-02-06-25141                                                                                                 $1,226,318
                                Account
                                Kansas Department of Social and Rehabilitation Services, an
                  3/23/2007
  A-07-07-17045                 Organizational Representative Payee for the Social Security                        $8,840
                                Administration
                  3/23/2007     Administrative Costs Claimed by the Florida Division of Disability
  A-15-06-16127                                                                                                 $2,379,104
                                Determinations

                  3/30/2007     Administrative Costs Claimed by the Tennessee Disability
  A-04-06-16053                                                                                                 $2,449,320
                                Determination Services
                                Defense Contract Audit Agency’s Audit of Lockheed Martin Services,
                  3/30/2007
  A-15-07-27117                 Inc. Incurred Costs for Calendar Year Ending December 31, 2004                  $2,551,124
                                (DCAA Report Number 6501-2004B10100001)
                                Management Advisory Report: Single Audit of the Puerto Rico
  A-77-07-00010   3/30/2007                                                                                      $207,302
                                Department of the Family for the Fiscal Year Ended June 30, 2003

                                         TOTAL                                                              $443,351,179




                                                                                                          Appendices  • 37
                                                                                                                        37
               Semiannual Report to Congress	                                            October 1, 2006 Thru March 31, 2007




                                   Reports with Funds Put to Better Use
                                   October 1, 2006 through March 31, 2007
    Audit Number Issue Date                                         Report                                     Dollar Amount
                                    Follow up on the Social Security Administration’s Procedures to Identify
      A-01-06-16054   10/27/2006                                                                                     $25,504,667
                                    Representative Payees Who Are Deceased
                                    Supplemental Security Income Recipients Whose Medicare Benefits
      A-01-06-26105   11/14/2006                                                                                        $237,103
                                    Were Terminated Due to Death
                                    Title II Disability Insurance Benefits with a Workers’ Compensation
      A-04-05-15133   11/22/2006                                                                                     $83,144,832
                                    Offset

      A-01-06-26131   12/11/2006    Title II Beneficiaries in England                                                    $17,628


      A-01-06-21093   12/20/2006    Childhood Continuing Disability Reviews and Age 18 Redeterminations             $105,552,612

                                    Impact of Statutory Benefit Continuation on Disability Insurance
      A-07-05-15094   12/21/2006                                                                                     $44,997,323
                                    Benefit Payments Made During the Appeals Process
                                    Government Pension Offset Exemption for Texas School Districts’
      A-09-06-26086    1/8/2007                                                                                    $2,537,391,759
                                    Employees

                                    Direct Deposits for Multiple Title XVI Recipients into the Same Bank
      A-02-06-25141    3/23/2007                                                                                        $264,390
                                    Account

                                    Administrative Costs Claimed by the Commonwealth of Puerto Rico
      A-06-06-16117    3/26/2007                                                                                      $1,107,250
                                    Disability Determination Program
                                    Administrative Costs Claimed by the Tennessee Disability
      A-04-06-16053    3/30/2007                                                                                      $6,564,835
                                    Determination Services

                                             TOTAL                                                                 $2,804,782,399




38  •  Appendices
38
 October 1, 2006 Thru March 31, 2007	                            SSA Office of the Inspector General




Appendix C: Reporting Requirements Under the
Omnibus Consolidated Appropriations Act for FY 1997
To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208, we are
providing requisite data for FY 2006 from the Offices of Investigations and Audit in this report.
Office of Investigations
We are reporting over $38 million in SSA funds as a result of our investigative activities in this reporting
period. These funds are broken down in the table below.


                       Investigative Activities

                     1st Quarter        2nd Quarter            Total
  Court Ordered
                         $7,012,788        $ 8,102,954         $15,115,742
   Restitution

    Recoveries          $11,082,762       $ 10,762,718         $21,845,480


      Fines                $225,727          $559,120             $784,847

   Settlements/
                           $212,252          $309,836            $ 522,088
    Judgments

     TOTAL              $18,533,529       $ 19,734,628        $ 38,268,157


Office of Audit
SSA management has informed us that it has completed implementing recommendations from 5 audit reports
during this time period valued at over $185 million.

Assessment of the Enumeration at Entry Process (A-08-04-14093, 3/15/2005)
We recommended that SSA continue to work with the State and DHS to resolve data incompatibility issues,
including name standardization. The implemented recommendation is valued at $3,285,960.

The Social Security Administration’s Controls over the Suspension of Title XVI
Overpayment Collection Efforts (A-04-04-24029, 4/12/2005)
We recommended that SSA issue a reminder and, if necessary, further guidance to SSA debt collection staff
requiring that they fully develop and document overpayment suspension decisions, as required by SSA policy. The
implemented recommendation is valued at $75,760,500.




                                                                                               Appendices  • 39
                                                                                                             39
              Semiannual Report to Congress	                              October 1, 2006 Thru March 31, 2007



          Childhood Continuing Disability Reviews and Age 18 Redeterminations
          (A-01-06-21093, 12/20/2006)
          We recommended that SSA conduct childhood CDRs at least every 3 years for children under age 18
          whose impairments are likely to improve in accordance with the Act’s provisions. We also recommended
          that SSA conduct age-18 redeterminations by the time recipients attain age 20. The implemented
          recommendation is valued at $105,552,612.

          Beneficiaries Paid Under More than One Social Security Number
          (A-01-06-26022, 8/10/2006)
          We recommended that SSA continue to work with OI on cases identified during our audit and assess
          overpayments where appropriate. The implemented recommendation is valued at $849,983.

          Title II Beneficiaries in England (A-01-06-26131, 12/11/2006)
          We recommended that SSA terminate benefits for two Title II beneficiaries based upon our review. The
          implemented value of this recommendation is $17,628.



          Appendix D: Significant Management Decisions With Which
          the Inspector General Disagrees
          There are no significant management decisions with which the Inspector General disagrees.




40  •  Appendices
40
 October 1, 2006 Thru March 31, 2007	                                SSA Office of the Inspector General



Appendix E: Collections From Investigations and Audits
The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
additional information concerning actual cumulative collections and offsets achieved as a result
of OIG activities each semiannual period.

Office of Investigations



               Total Restitution Reported by DOJ as Collected for SSA

                     Total Number of
                                                    Court Ordered
                   Individuals Assigned                                        Total Restitution
        FY                                            Restitution
                      Court Ordered                                            Collected by DOJ
                                                    for This Period
                        Restitution
       2005                  661                                $22,292,757                $1,753,601

       2006                  578                                $18,817,909                $1,447,402

       20071                 349                                $15,115,742                 $309,386

       TOTAL                1,588                               $56,226,408               $3,510,389

   Reflects collection for October 1, 2006– December 31, 2006
   1




                    Recovery Actions Based on OI Investigations

                         Total Number of Recovery
             FY                                                      Amount for Recovery
                             Actions Initiated

          2005                        1,686                                $30,908,777

          2006                        1,865                                $35,492,314

         20071                        1,185                                $21,845,480

         TOTAL                        4,736                               $ 88,246,571

   Reflects data for October 1, 2006– March 31, 2007
   1




                                                                                                   Appendices  • 41
                                                                                                                 41
             Semiannual Report to Congress	                                       October 1, 2006 Thru March 31, 2007



          Office of Audit
          The following chart summarizes SSA’s responses to our recommendations for the recovery or
          redirection of questioned and unsupported costs. This information is prepared in coordination with
          SSA’s management officials and is current as of March 31, 2007.


                                    SSA’s Responses to OIG’s Recommendations
                             Recovery or Redirection of Questioned and Unsupported Costs

                    Reports with                                              Amount            Amount
                                   Questioned/           Management
             FY     Questioned                                            Collected or to be   Written-Off/         Balance
                                 Unsupported Costs       Concurrence
                       Costs                                                 Recovered         Adjustments

            2005        24             $374,930,433      $363,916,161        $173,530,234       $120,328,4211     $75,538,490

            2006        24           $1,373,740,596     $1,245,415,125     $1,164,094,843       $129,567,145      $80,078,608

            2007        14             $443,351,179      $201,006,283          $1,347,524       $216,278,326 $225,725,329

          TOTAL         62           $2,192,022,208 $1,810, 337,569  $1,338,972,601             $466,173,892 $381,342,427

             1
              This amount includes $109,196,018 in adjustments that were contained in the report, School Attendance by Student
             Beneficiaries Over Age 18 (A-09-04-14013, 1/31/05). We recommended that SSA evaluate the feasibility of
             establishing overpayments and initiating collection activities for the remaining incorrect and unsupported payments
             questioned by our audit. SSA agreed but, the probability of collecting any overpayments from these beneficiaries is
             very low. SSA has evaluated the feasibility of processing this workload and has determined that it does not have the
             resources needed to complete it, especially given the low rate of return. However, due to the audit, SSA is working
             with the processing centers to determine ways to make the student process less vulnerable to incorrect payments.  ­




42  •  Appendices
42
  October 1, 2006 Thru March 31, 2007	                              SSA Office of the Inspector General



Appendix F: Significant Monetary Recommendations From
Prior FYs for Which Corrective Actions Have Not Been
Completed
The Social Security Administration’s Controls over the Old-Age, Survivors and
Disability Insurance Waiver Approval Process (A-13-05-15027, 2/1/2006)
Recommendation: Alert employees to follow policies and procedures when approving waivers for Old-
Age, Survivors and Disability Insurance (OASDI) overpayments that exceed $500 regarding decisions
of whether beneficiaries are without fault for the overpayment; and recovery of the overpayment would
either defeat the purpose of Title II of the Act or be against equity and good conscience.
Valued at: $11,146,465 in questioned costs.
Agency Response: SSA agreed with the recommendation but disagreed with the dollar amount.
Corrective Action: SSA was to issue a reminder in the form of an Administrative Message and to
request that the Office of Training present it during one of the transmittal training broadcast sessions
no later than March 2006. Operations continues activities to implement this audit recommendation. The
Administrative Message is in the draft stage, comments from other components are being consolidated
prior to publication for national use.

The Social Security Administration’s Controls over the Write-off of Title XVI
Overpayments (A-04-05-15041, 1/20/2006)
Recommendation: Issue a reminder to SSA field office personnel to fully develop and document
overpayment write-off decisions, as required by Program Operations Manual System (POMS), and
implement a mechanism to monitor their compliance.
Valued at: $49,067,615 in questioned costs.

Agency Response: SSA agreed with the recommendation.
Corrective Action: The current POMS instructions were to be revised to provide the specific steps to
be taken, detail the criteria that must be met, and clearly identify what documentation is required. SSA
expected to complete the revisions and issue revised POMS by the end of the third quarter of 2006.
Additionally, SSA was to ensure that the POMS revisions were presented to the field offices through a
transmittal training broadcast. In terms of implementation of a mechanism to monitor compliance, SSA
was developing a project known as “Discrete TAC Codes.” When an overpayment determination is made,
the “TAC Code” (this is referenced in the report as “transaction code”) would be recorded to show the
disposition of the overpayment. This enhancement, expected to be implemented in late FY 2006, would
ensure better documentation of the overpayment disposition process. SSA believes the implemented
2-personal identification number (PIN) management approval process, along with updated POMS
instructions, will be sufficient monitoring of the documentation used to support proper write-off of
uncollectible funds. The initial implementation to provide TAC codes clarifying overpayment decisions
was completed in July 2006. The Administrative Message addressing this recommendation is pending.
POMS procedure is currently being revised for clarification.




                                                                                                   Appendices  • 43
                                                                                                                 43
             Semiannual Report to Congress	                                    October 1, 2006 Thru March 31, 2007



          Appendix G: Significant Non-Monetary Recommendations
          From Prior FYs for Which Corrective Actions Have Not Been
          Completed
          The Social Security Administration’s Controls over the Write-off of Title XVI
          Overpayments (A-04-05-15041, 1/20/2006)
          Recommendation: We encouraged the Agency to issue a reminder and, if necessary, further guidance to
          SSA field office personnel on the proper disposition of overpayments resulting from Goldberg-Kelly type
          payments.
          Agency Response: SSA agreed with the recommendation.

          Corrective Action: Additional information to provide explicit direction was to be provided in the POMS.
          POMS SI 02301.310B requires the SSA representative to explain to the recipient that he “might” have to
          repay incorrect payments if he loses the appeal. This section was to be revised to include Goldberg-Kelly
          overpayment information so that field office personnel will be required to provide a recipient with an
          explanation and to emphasize the recipients’ responsibility to repay incorrect payments made during the
          appeal period. The Agency was to clarify the POMS instructions and issue revisions by the end of the
          third quarter of 2006. Operations will continue their efforts to implement this audit recommendation.
          Recommendation: Ensure that all uncollectible overpayment decisions exceeding established thresholds
          are reviewed and approved by appropriate SSA management officials, as required by POMS.
          Agency Response: SSA agreed with the recommendation.
          Corrective Action: The field offices were to be reminded that SSA policy requires management review
          even for those cases when numerous smaller overpayments may exceed the specified tolerance and the
          system does not automatically present the 2-PIN process. The Agency was to issue a reminder to field
          office personnel by February 2006. The POMS procedure is currently being revised for clarification.

          The Social Security Administration’s Controls over the Old-Age, Survivors and
          Disability Insurance Waiver Approval Process (A-13-05-15027, 2/1/2006)
          Recommendation: Ensure required secondary peer review and sign-off occurs for waivers of overpayments
          greater than $2,000.
          Agency Response: SSA agreed with the recommendation.
          Corrective Action: Based on the discussion of this issue during the entrance conference, it is only the paper
          documentation that lacked a “second signature” review based on the amount of overpayment. When a waiver
          approval is input into the Debt Management System (DMS), the program looks at the amount of the
          overpayment. If the debt amount is greater than $2,000, the DMS holds the transaction until the Review
          Waiver Disposition is completed. Therefore, all of the waivers posted to the Recovery of Overpayments,
          Accounting and Reporting system obtained a “second PIN” signature signifying that the second review had
          been completed. However, SSA was to remind the field offices that the secondary peer reviewer needs to
          sign the SSA-635 Waiver Determination to ensure proper documentation. Operations continues activities
          to implement this audit recommendation.



44  •  Appendices
44
October 1, 2006 Thru March 31, 2007	                      SSA Office of the Inspector General




Glossary of Acronyms
     Abbreviation                                 Definition
ALJ                    Administrative Law Judge
CDI                    Cooperative Disability Investigation
CDR                    Continuing Disability Review
CMP                    Civil Monetary Penalty
CMS                    Centers for Medicare and Medicaid Services
CPMS                   Case Processing and Management System
DCN                    Double Check Negotiation
DHS                    Department of Homeland Security
DI                     Disability Insurance
DMS                    Debt Management System
DOJ                    Department of Justice
ESF                    Earnings Suspense File
FBI                    Federal Bureau of Investigation
FEMA                   Federal Emergency Management Agency
FY                     Fiscal Year
GPO                    Government Pension Offset
IO                     Immediate Office
IT                     Information Technology
IRS                    Internal Revenue Service
LVSSCC                 Las Vegas Social Security Card Center
OA                     Office of Audit
OASDI                  Old-Age, Survivors, and Disability Insurance
OCCIG                  Office of the Chief Counsel to the Inspector General
ODAR                   Office of Disability Adjudication and Review
OI                     Office of Investigations
OIG                    Office of the Inspector General
OMB                    Office of Management and Budget
OQAPR                  Office of Quality Assurance and Professional Responsibility


                                                                                                Glossary •   45
     Semiannual Report to Congress	                            October 1, 2006 Thru March 31, 2007




        Abbreviation                                     Definition
      ORM                     Office of Resource Management
      PCIE                    President’s Council on Integrity and Efficiency
      PIN                     Personal Identification Number
      POMS                    Program Operations Manual System
      SSA                     Social Security Administration
      SSI                     Supplemental Security Income
      SSN                     Social Security Number
      SSNVS                   Social Security Number Verification Service
      the Act                 Social Security Act
      USMS                    United States Marshals Service
      WC                      Workers’ Compensation
      YCER                    Young Children’s Earnings Record




46
                                                                    How to Report Fraud
                                                          The SSA OIG Fraud Hotline offers a means for you to
                                                         provide information on suspected f raud, waste, and abuse.
 Social Security Administration                           If you know of current or potentially illegal or improper
                                                             activities involving SSA programs or personnel, we
 Office Of The Inspector General                           encourage you to contact the SSA OIG Fraud Hotline.

                 Mission Statement
                                                                    Call	1-800-269-0271
By conducting independent and objective audits,
evaluations and investigations, we inspire public                 Write	 Social Security Administration
confidence in the integrity and security of SSA’s
programs and operations and protect them             	                   Office of the Inspector General
against fraud, waste and abuse. We provide timely,   	                   Attention: SSA Fraud Hotline
useful and reliable information and advice to        	                   P. O. Box 17768
Administration officials, Congress and the public.   	                   Baltimore, MD 21235

                                                                     Fax	410-597-0118
                 Vision and Values
We strive for continual improvement in SSA’s
programs, operations and management by                         Internet   www.socialsecurity.gov/oig
proactively seeking new ways to prevent and deter
fraud, waste and abuse. We commit to integrity           To obtain additional copies of this report please visit our
and excellence by supporting an environment                        website at www.socialsecurity.gov/oig
that provides a valuable public service while
encouraging employee development and retention
and fostering diversity and innovation.
                                                                           SSA Pub. No. 85-007
                                    Social Security Administration
                                   Office of the Inspector General


                                     Semiannual Report
                                       to Congress

                                  Forging New Partnerships
                                      October 1, 2006 thru March 31, 2007




Report Fraud, Waste, and Abuse

       1-800-269-0271




     www.socialsecurity.gov/oig

      SSA OIG Pub. No. 85-007
        Published May 2007
